Supreme Court, U.S.
FILED

S<z3 A

NO.

/j L
"3C

r;

c

Mi 0 h 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

BURUDI J. FAISON
PETITIONER
v.
UNITED STATES OF AMERICA
RESPONDENT

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS

FOR THE FOURTH CIRCUIT

BRIEF FOR PETITIONER

BURUDI J. FAISON
INMATE#3507 5-037
FCI HAZELTON
P.O. BOX 5000
BRUCETON MILLS W.V. 26525
PRO-SE PETITIONER
JUNE 4., 2021

■■

r~ f

r

j \ r

\
; ;i

1

I

V/

■

i

,1

I

\

QUESTIONS PRESENTED

lii September of 2018, petitioner was found in possession
of two firearms in the State of Maryland, Prince Georges County,
in the City of Capitol Heights, in the Town of Fairmont Heights,
on a residential street

doors from his family home; after

being stopped by the Prince Georges County local police, follow­
ing a domestic dispute known as road rage. Petitioner was
subsequently arrested and charged with several violations of
State, County, and local laws and ordinances. In January of
2019, petitioner (hereinafter Faison), was detained by the U.S.
Marshalls service on a federal warrant issued by Judge G.J.
Hazel of the Greenbelt Maryland U.S. District Court. In February
of 2019 Faison was indicted for violating 18 USC 922(g),
possession of a firearm as a prohibited person. In October of
2019, Faison was found by jury. In January of 2020, Faison was
sentenced to 77 months and remanded to the custody of the U.S
Bureau of Prisons.

THE QUESTIONS PRESENTED ARE:

If the current precedent case lav; for commerce jurispru­
dence, i.e, U.S. Lopez 514 US 549, conflicts with another
currentlyapplied case decision, i.e, Scarborough v. U.S. 431
US 563

must not Scarborough be overruled as inconsistent with

this court's most currently followed commerce jurisprudence
from this court?
ii

Does the Constitution give Congress the power to regulate
j

and punish mere firearm possession ‘ within the States', when the
possession is a crime denounced as criminal in the States; and
is an area of of traditional State responsibilty guaranteed by
the Tenth Amendment to the Constitution of the United States;
and if the Constitution does not

is the regulation and punis­

hment of simple firearm possession by the federal government
exceed Congress

power and contravine the Sovereign power

reserved to the States by the Tenth Amendment?

Is 18 USC 922(g) un-constitutional when applied to a person
whose conduct does not involve economic or commercial activity,
and does not substantially affect commerce as outlined in Lopez;
if yes, should not this court restructure the substantial
affects

test inorder to bring it back within the original

understanding of the commerce clause 's conferred power?

Does the premise expressed in Apprendi v. New Jersey 530 US
466 and Alleyne v US 570 US 99, that facts that alter the
prescribed range of penalties to which a criminal defendant is
exposed, are elements of

the crime that a defendant has the

Fifth . Amendment and Sixth Amendment right to have a jury find
beyond a reasonable doubt, apply to the federal sentencing
enhancement provisions, as this court held applied to the
States sentencing Enhancement-provisions?

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
TABLE OF AUTHORITIES
RELATED PROCEEDINGS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS
STATEMENT OF CASE
SUMMARY OF ARGUMENT
A. CONFLICTING COMMERCE CLAUSE JURISPRUDENCE
B. TENTH AMENDMENT SOVEREIGNTY POWERS
C. 922(g) DOES NOT REACH PETITIONER'S
CONDUCT
D. DENIAL OF FIFTH AND SIXTH AMENDMENT RIGHTS
TO HAVE SENTENCING ENHANCER PROVISIONS
THAT INCREASE PENALTY RANGE ALLEGED IN
THE INDICTMENT AND FOUND BY A JURY BEYOND
A REASONABLE DOUBT.

ii,iii
vi,vii
1
1
2
2
2,3,4
4,5
7-12
13-18
18-20

21-22
6

ARGUMENT
I. Lopez has stood as this Court's current
commerce clause jurisprudence for the last 26
years. It's change of the commerce analysis
landscape was re-affirmed in U.S. v. Morrison 529
US 598 (2000). Several circuits have recognized
the tension and conflict between Lopez and Scarbo­
rough but have assreted to follow Scarborough until
direction from this court dispels the conflict.
II. The Constitution limits by enumeration '
Congress' power; to leave no question on the point,

the Tehth Amendment to the Constitution was enacted.
The States power was understood to be any power not
enumerated in the Constitution,> therefore the power
iv

to regulate and punish mete firearm possession is
clearly a State povzer that is re-affirmed by the
Tenth Amendment.
III. As this court has repeatedly held, a
violation of federal commerce lav/ requires that the
activity be economic or commercial in nature,
therefore 922(g) does not reach petitioner's conduct
and is therefore un-constitutional as applied to
petitioner's conduct. Mere firearm possession is
neither economic nor commercial and therefore is not
a violation of federal lavz.
IV. The facts (penalty enhancers) that increased
petitioner's penalty range v/ithout informing him by
indictment, and having those facts found by a jury
beyond a reasonable doubt, denied petitioner of his
fifth and sixth amendment rights as outlined in
Apprendi v. Nevz Jersey 530 US 466 and Alleyne v. U.S.
570 US 99.
CONCLUSION

23

v

TABLE OF AUTHORITIES
.
U.S. v. Alderman 565 F3d 641 9th cir
U.S. v. Bass 404 US 336
U.S. v. Bishop 66 F3d 569 3rd cir
U.S. v. Gaudin 515 US 506
U.S. v. Haymond 139 S. ct. 2369
U.S. v. Lopez 514 US 549

Page
8
6,9,19
8
22
21

U.S. v. Morrison 529 US 598
U.S. v. Patton 451 F3d 615 10th cir
U.S. v. Reese 92 US 214
U.S. v. Vasquez 611 F3d 325 7th cir
Alderman v. U.S. 562 US 1163
Alleyne v. U.S. 570 US 99
Bond v. U.S. 572 US 844
Heart of Atlanta Motel Inc v. U.S.
Jones v. U.S. 529 US 848
Rangel-Reyes v. U.S. 547 US 1200
Sabri v. U.S. 541 US 600
Scarborough v. U.S. 431 US 563

1,3,4,6,8,9
10,19,208,10, 19,20 8
22
8
8
21,22,23
12,14,17,18
9
8
21
8
1,2,4,6-11

Apprendi v. Nev/ Jersey 530US 466
BFP v. Resolution Trust Corporation 511 US 534
Bretch v. Abrahamson 507 US 619

21-23

Citizens Bank v. Ala. Fabco Inc.
Cohen v. Virginia 6 Wheat 264

8
10,12

539 US 52

Gregory v. Ashcroft 501 US 452
Hodel v. Virginia Surface Mining and Reclamation
assn. Inc. 452 US 264
Jones v. Laughlin Steel 301 US 1
Pierce County v. Gullein 537 US 129
Sessions v. Dimaya 138 S,ct. 1204

17
14

17
9
8,9
8
21

i

Solid Waste' Agency v. Army Corp. of Eng. 531 US
159

8

Whalen v. Roe 492 US 589

14
vi

OTHER AUTHORITIES
Page
U.S. Sentencing Guideline Manual
section 2K211 (a)(4)(B)
section 2K2.1 (a)(6)
section 2K2.1 (b)(6)(B)
U.S. Codes
18 USC 922 (g)
18 USC 922(q) (pre Morrison)
18 USC 1202 (repealed)
28 USC 1254
U.S. Constitution
Article I
Fifth Amendment
Sixth Amendment
Tenth Amendment

21,23
21
21
22
1-6,8,11,16
18.9 22
7
5,7
1
3,5
1,5,21,22,23
1,5,21,22,23
1,3,4,12,13
14

vii

RELATED PROCEEDINGS
This case was initiated in the United States
District Court for the Southern District of Maryland,
docket number CR-18:19-00027 G'J.H-1

United States v.

Burudi J. Faison, judgement entered on February 20,
2020. A timely notice of appeal was filed to the
United States Court of Appeals for the Fourth Ciruit,
case number 20-4163, United States v. Burudi J.
Faison, judgement entered on January 5, 2021. Due to
the COVID-19 pandemic, this Court issued a standing
order extending all Certiorari filing dates an extra
60 days, giving petitioner a required filing date of
June 4, 2021. Pursuant to the prison mailbox rule
petitioner filed a timely petition for writ of certorari on June 41., 2021.
OPINIONS BELOW
The opinion of the United States District Court
is reported at U.S. v. Burudi Faison U.S. Dist. LX
27643

and is reproduced at petitioner's appendix.pg.

33-B19. The opinion of the Fourth Ciruit Court of
Appeals is reported at U.S. v. Burudi Faison appeal
number 20-4163, and reproduced at petitioner's
appendix at pgAl-li. The U.S. District Court's
i

unpublished bench ruling denying petitioner's Tenth
Amendment challenge are reproduced at pat. app. pgB20-21.
1

JURISDICTION
The District Court issued it's judgement on
January 20, 2020. A timely notice of appeal was filed
the same day. The Court of Appeals issued it's
judgement on January 5, 2021. Petitioner files this
Writ of Certiorari in the time approved by this Court's
CCWID-19 standing order, timely, on may 30, 2021. This
court has jurisdiction over this matter pursuant to
28 USC 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
The pertinent portions of Article I and II of
the Constitution are reproduced at pet. appx. pg. Cl.
The Fifth Sixth, and Tenth Amendments are reproduced
at pet. appx. pg. C2-C4 respectively. 18 USC 922(g),
9229q), and 1202 are reproduced at pet. appx. pg.
D1-D3 respectively. The pertinent parts of section
2K2.1 are reproduced at pet. appx. pg. El.
STATEMENT OF CASE
This case raises four fundamental questions such
as should U.S. v. Scarborough be overruled as incon­
sistent with this court's current commerce jurispru­
dence outlined in U.S. v. Lopez. Does the punishment
and regulation of mere firearm possession circumvent
the States Tenth Amendment Sovereign power. And is a
defendant denied his fifth and sixth amendment rights
when his penalty range is increased by facts not
alleged in the indictment, nor submitted to a jury
to be found beyond a reasonable doubt, even if

2

those facts were placed in the federal sentencing
provisions.

‘

'

The case arises^ from an domestic altercation
better known as road rage, that took place in the State
of Maryland. The other party to the altercation chased
petitioner and his father through the streets following
them to their family home. A verbal confrontation took
place for several minutes, ending in the other driving
off. The police report and testimony alleges that the
other party stopped the officers and informed them
that he had been involved in a road rage incident where
one of the occupants threatened to shoot him. The
officers were directed to the direction in which the
vehicle petitioner was in had last been seen, and
came across the petitioner and his father driving
towards them-.
Following a pat down search, petitioner was found
in possession of two firearms, and arrested. Instead
of leaving this clearly local crime to State prosecu­
tion, federal authorities stepped in and charged
petitioner with violating federal law for conduct that
is traditionally left to the States to choose to
punish. To defend it's overstepping, the government
alleged that petitioner violated a statute that is
intended to regulate commerce by asserting that petit­
ioner's' conduct was in and affecting commerce, but
failing to allege by indictment

or proving to a jury

beyond a reasonable doubt that his act was economic or
3

commercial in nature.
Before the start'of petitioner's trial he made an
oral motion to dismiss the indictment on a Tenth
Amendment ground and lack of subject matter jurisdiction.
The District court denied the motion stating that the
lav/ v/as clear on the point. Petitioner was found guilty
of violating 922(g) and appealed to the Fourth Circuit
Court of Appeals, arguing the same issues along with a
few others as to sentencing. The Court of Appeals
affirmed the district court's rulings and judgement.
The district court and the lov/er court's rulings ess­
entially declare that Congress has broad and sv/eeping
pov/ers under the commerce clause which have reached
beyond even those pov/ers enumerated in Article I

t

even though this court has long held this not to be so.

SUMMARY OF ARGUMENT
A. INCONSISTENT COMMERCE JURISPRUDENCE
In 1977 this court decided Scarborough v. U.S.
v/here it held that proof that a firearm had previously
travelled at sometime in interstate commerce v/as
sufficient to satisfy the required nexus between
possession and commerce. Though acknowledging the
conflict in. light of U.S. ;v. Lopezt changing the....,
commerce jurisprudence landscape, the circuits have
insisted on following Scarborough until they receive
guidance or clarification from this court.
4

B. TENTH AMENDENDMENT RESERVED POWERS
*

i

B. The tenth amendment reserved the powers not
enumerated in the Constitution to the States or the
people respectively. Section 8 of Article I enumerates
Congress' powers; nowhere does it list the power to
regulate or punish_mere gun possession, therefore
it's regulation and punishment is a power reserved
to the States. Punishment of mere firearm possession
exceeds Congress' power and circumvents the States
tenth Amendment Sovereign powers.
C. 922(g) DOES NOT REACH PETITIONERS CONDUCT
C. As petitioner's conduct, i.e., unlawful
firearm possession, was neither economic nor comme­
rcial, 922(g) as applied to petitioner's conduct
should be held un-constitutional and found not to
reach petitioner's conduct.
D. DENIAL OF FIFTH AND SIXTH AMENDMENT RIGHTS
D. Petitioner's penalty range was increased by
facts that were not alleged in his indictment nor
submitted to a jury to be found beyond a reasonable
doubt. Though the facts stem from the Federal Senten­
cing provisions, they are enhancers and should there­
fore be held to the same standards the Apprendi court
held the State sentencing enhancement provisions to.

5

ARGUMENT
•

■

>

I. SCARBOROUGH SHOULD BE OVERRULED AS INCONSISTENT WITH LOPEZ
Lopez has stood as the current commerce clause
jurisprudence for the last twenty-six years, being cited
in every commerce case since being decided. It's changing
of the commerce clause landscape was reaffirmed in
Morrison. The conflict between Lopez and Scarborough
can only be settled by direction from this Court, or
the overturning of Scarborough as inconsistent with
current commerce jurisprudence. In 1971 this Court heard
United States v Bass, 404 U.S. 336

where it held that

18 U.S.C. § 1202, the predecessor to 18 U.S.C. § 922,
was ambigous, and that the government was required to
prove the requisite nexus with interstate commerce. Id.
at 347.
Six years later in Scarborough v United States, this
Court once again was asked to review an issue in reference
to § 1202. The question presented was: Is proof the
possessed firearm previously traveled at sometime in
interstate commerce sufficient to satify the statutory
required .nexus between the possession of a firearm by a
convicted felon and commerce. This, Court held it was.
Since this decision

many forms of activity shown to

have had a commerce connection previously, has been upheld

6

as violations of federal law, even when the conduct
itself was not connected to any economic or commercial
activity. Scarborough's "previously traveled at sometime
in interstate commerce" premise had become the commerce
jurisprudence in any case where commerce was in question.
Then in 1995, the landscape for commerce jurisprudence
was changed, the previously travelled premise was no
. longer the standard commerce jurisprudence. This Court
jt

had decided a different firearm statutory provision,
but one enacted under Congress' Commerce Clause Authority.
By this time, 18 U.S.C. § 1202 had been repealed, and
18 U.S.C. § 922 had replaced it. A section of this
statute (§ 922(q)) was under review. The Defendant had
questioned it's constitutionality. This Court held that
one: possession of a gun in a local school zone is in no
sense an economic activity... having substaintial effect
on interstate commerce; two: the statute had nothing to
do with commerce or any sort of economic enterprise;
three: nor was it essential part of a larger regulation
of economic activity... therefore, it could not be
sustained under the Court's cases upholding regulations
of activities that arise out of or are connected with a
commercial transaction... that substantially affects
interstate commerce.

7

18 U.S.C § 922 is not the, only statutory provision to
which the Scarborough jurisprudence is still applied, but
in most current commerce cases, the Lopez analysis has
been the guide. See United States v Morrison; Jones v.
United States, 529 U.S. 848, Solid Waste Agency v. Army
Corp. of Eng. 531 U.S. 159; Pierce County v Gullein,'
537 U.S. 129; Citizens Bank v Ala. Fabco Inc., 539 U.S.
52; Sabri v United States,. 541 U.S. 600. Several circuits,
though acknowledging that Lopez had significantly altered
the landscape of commerce jurisprudence, and the conflict
cause by this change, have determined Scarborough to be
precedent case law. See Alderman v United States, 562
U.S. 1163 (J. Thomas dissent from denial of certiorari)
citing United States v Patton

451 F.3d 615 (10th 2006);

United States v Bishop, 66 F.3d 569 (3rd Cir. 1995);
United States v Vasquez, 611 F.3d 325 (7th Cir. 2010);
United States v Alderman, 565 F.3d 641 (9th Cir. 2009).
Both cases being left to exist in tandem has led to what
these courts describe as tension and doctrinal inconsistency,
"...any doctrinal inconsistency between Scarborough and
the Supreme Court's more recent decisions is

not for

us to remedy." Patton at 636. And they have stated their
intent to follow Scarborough, "until the Supreme Court
tells us otherwise." Alderman ..at; 648 .

8

Lopez reiterated thd thrfee categories of a'ctivity
Congress may regulate under it’s commerce power. "First,
Congress may regulate the use of channels of interstate
commerce " "Second, Congress is empowered to regulate
and protect the instrumentalities of interstate commerce,
or person or things in interstate commerce, even though
the threat may come out from interstate activities."
"Finally, Congress' commerce auhtority includes the
power to regulate those activities having a substantially
affect interstate commerce." Lopez at 558-59, citing
Hodel v Virginia Surface Mining and reclamation Assn. Inc. ,
452 U.S. 264 (1981); Heart of Atlanta Motel Inc. v United
States, 379 U.S. 241 (1964)

Jones v Laughlin Steel, 301

U.S. 1 (1937).
Scarborough has also taken away another principle
that was announced in United States v Bass, the case
by case inquiry. Id. at 390. The holding in Scarborough
makes a case by case inquiry obsolete, because the
holding only requires that, there be proof that the item
travelled at some point in interstate commerce. Any
other questions, such as, was the person's act or conduct
an economic or commercial endeaver; did it involve the
person crossing state lines to complete or perform that
endeavor; was the act a crime readily denounced by
the Sthteshas been ignored

9

Lopez opined several points

that establish that Scarbprough's inconsistency^ can only
be remedied by it's being overturned. (1) the activity
being regulated should be economic or commercial in
nature. Morrision at 610; Lopez at 551, 559-561. (2)
cases have upheld regulation of interstate activity
only where that activity is economic in nature. Morrison
at 613; Lopez at 559-560. (3) this court has rejected
the argument that

Congress may regulate noneconomic...

criminal conduct... Morrison at 617.
This Court long ago held that Congress "cannot
punish felonies generally." Cohens v Virginia, 6 Wheat 264,
426, 428 (1821), but Scarborough's holding offers
prosecutors a loophole; the travelled at sometime in
interstate commerce kind. An argument can be made that
the federal government would not prosecute something
as minute as theft of a candy bar that was made in Hershey
Pennsylvania, but stolen from a store in Maryland, but
that's not the question. The question is, does Scarborough's
holding make it allowable to charge so.The a.nswer is yes.
Scarborough makes it permissable for the federal
government to charge any number of crimes, where the
crime involves something that has travelled at some
point in interstate commerce. For example, Scarborough

10

would allow for littering- to be a federal crime,because
the item littered

had once travelled in commerce. It

would make a crime punishing a child with a belt that
had once travelled in commerce. Even more far reaching
is that it would allow for the making of the failure
to recycle a crime, simply because items not recycled,
have once travelled in commerce.
The examples may be illogical to assume but it's
Scarborough's application to such acts that is illogical.
Scarborough does not require a consideration of whether
the conduct or activity being charged as a crime is
either economic or commercial in nature, or whether it
affects commerce. Without clarification or an,overruling,
there will continue to exist conflict and tension. As
decide'd, Scarborough allows punishment for, and makes crime
out qf any item that has at some time travelled in
interstate commerce. If this Court finds that Scarborough
needs not be overruled, then it should at minimum hold
that § 922(g) requires proof that the gun possession.;
was in connection with,, a pare of, or arising from, a
commercial or economic act.
As such, Petitioner believes that in order for this
Court's commerce jurisprudence to sustain it's consistency,
Scarborough must be overruled or clarified to show
alignment ;with the current commerce clause jurisprudence
outlined in Lopez and Mo'rrisdn.
11

II. TENTH AMENDMENT SOVEREIGNTY
'
i

,

The Tenth Amendment holds that: the powers not
delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the
States respectively of to the people. When the states
agreed to .the Constitution

it was understood that the

powers the states had held long before the Constitution's
creation

such as the legislation of law for the public

good, whatever that entailed

would remain with the

states and it's people. This particular issue was one
of the main arguments against ratification of the
Constitution which played out in the news media later
labeled the Federalist papers. The most historic case
law recognized that the power retained by the states,
was a police power, i.el the power to punish crimes
generally. The states have broad authority to enact
legislation for the public good - what we have often
called a police power." Bond v United States, 572 U.S.
844, 854 (2014) Bond II.
"For nearly two centuries it has been clear that
lacking a police power, Congress cannot punish felonies
generally." Cohens v Viriginia. ^'Perhaps the clearest
example of traditional state authority is the punishment
of local criminal activity." Bond II at 588.

12

Every state in the riatioft has laws to puni’sh
illegal and unlawful possession of firearms, including
the State of Maryland. See MD Law CR5 622, PS5 133c,
PS5 138, CR4 203, Cr4 203, PS5 133(b), among others.
The Tenth Amendment guarantees that local crimes are
left to local law enforcement, since it is a power that
is not only delegated to the states thru the Tenth
Amendment, but has "traditionally been the responsibility
of the states." Bond Ilat 845. Petitioner was charged
with mere firearm'

possession, a crime that is punished

as a local crime in the State of Maryland. No part of
petitioner's crime involved any commercial or economic
endeavor to make it a federal crime." The states core
police powers have always included authority to define
criminal law and protect the health, safety, amd welfare
of thier citizens." Bretch v Abrahamson, 507 U.S. 619,
635 (1993); Whalen v Roe 492 U.S. 589, 603 N.30 (1977).
"We. do well to

recall how James Madison, the Father

of the Constitution, described our system of joint
sovereignty to the state of New York;... the powers
reserved to the several states will extend to all objects
which in the ordinary course of affairs, concerns the
lives, liberties, and properties of the people, and the
internal order, improvement, and prosperity of the State."
The Federalist No. 45 pg 292-93 (L. Rossiter ed. 1961).

13

The possession of a firearm on a public street,
wholly within the state of Maryland, is neither economic
or commercial, nor a commerce activity between more than
one state. The states have historically enacted
legislation for the public good, including legislation
involving firearms. Unlike federal firearm laws that
target certain classes of people, and certain acts,
state laws encompass the entire population of the states
citizenry. All citizens within a state are required to
register firearms, obtain permits, and be authorized to
possess those firearms; clear examples of legislating
for the public good. The very power the Tenth Amendment
guarantees to the states. On the other hand, federal
firearm laws don't require registration, permits, or
authoriztaion to possess. As it's power allows, federal
law regulates buying and selling thru commercial
transactions, that include selling outside a state thru
a business, or licensed seller.
The federal government exist, and it's power
extends to legislating for the national good, laws
enacted to address a legitimate national concern.
Enactment of laws that target c trtain classes of people
have no legitimate national concern. A crime committed
in the State of Maryland, in no way concerns the State

14

of California. Then how does it concern or fall under
the power of the federal government. For a crime to be
of a national concern, it should apply to all under the
national government's power, not just certain classes
of people. In doing so, what makes such laws any
different from the laws created by some states precivil rights act. Many decisions from this Court have
held that laws created in states could not target certain
classes of people, and the Fourteenth Amendment was
created to ensure that the states abided by this decree.
If § 922(g) or any other federal firearm legislation
is based on a true national concern, whyy are other
persons of national concern not included, such as,
hate groups, religious zealots, extremist groups,
or cults. Why not include adults wholjeave firearms
accessible to children

persons who have not been

trained to handle firearms

or persons of a certain age

who may no longer have the faculties to properly handle
a firearm. The list could become exhaustive. The reason
the federal government doesn't include these is because
legislation of public law, enforcement of criminal law,
and deciding what falls under the umbrella of public
good was left to the states. This is clear from the
Constitution's enumeration of Congress' power and the
Tenth Amendment's specifying that if the power is not

15

enumerated

then Congress does not have that pqwer,

the State does.
Many Supreme Court cases have opined on the
balance of state and

federal power. "...It is incumbent

upon the federal courts to be certain of Congress' intent
before finding that federal law overrides the usual
constitutional balance of federal and state powers."
Bondll at 858 citing Gregory v Ashcroft, 501 U.S. 452,
460 (1991). "...If the federal government would radically
readjust the balance of state and national security
authority, those charged with the duty of legislating
must be reasonably explict about it." Bond II at 858
citing BFP v Resolution Trust Corporation, 511 U.S.
534, 544 (1994). "Congress has traditionally been
reluctant to define as a federal crime conduct readily
denounced as criminal by the states." Bass at 349.
Federal punishment of mere firearm possession clearly
upsurps the states sovereign power under the Tenth
Amendment and it can't be shown how possession of a
firearm, on a public residential street, within the
state, is a crime the Constitution delegates to the
federal government.
As such, this Court should find that mere firearm
possession is a crime that the Tenth Amendment delegates
to the states to punish as a local crime, not under

16

federal powers.
III. 922(g) IS UNCONSTITUTIONAL AS APPLIED TO PETITIONER'S
CONDUCT.
This Court has held

on more than one occasion,

that 18 U.S.C 922(g) is a constitutional use of Congress
Commerce Power, therefore, the question is whether the
statute is constitutional as applied to Petitioner's
conduct. The provision requires that the person, along
with being a prohibited person, be in or affecting
commerce. The inquiry would have to illicit the .
question of how is the mere possession of a firearm,
within the state, in or affecting commerce. In Bond v
United States, 572 U.S. 844, this court held that the
conduct of the defendant though falling within the
definition of the Act, was a local crime that the Act
did not reach, but that general definition does not
constitute a clear statement that Congress meant the
statute to reach local criminal conduct. Id. at 860.
The question here exist on the same premise. In
and affecting cannot encompass a simple unlawful
possession because it also has to to entail commerce.
This would mean that "in or affecting commerce" limits
the reach of the statute toj.ustthat. In Petitioner's
case it was neither alleged or proven how this mere

17

11

firearm possession was in or affecting
commerce. United
States v Bass gave examples of how the
government could
prove a violation of 'possesing in
or affecting commerce,
for example,:a.person possess... in
commerce or affecting
commerce, if at the time of the possession, the gun
was moving interstate or on an interstate facility,
or affects commerce. " Id. at 350.
In Lopez, this
Court narrowed the commerce application to activity
that was economic or commercial.
"Both petitioner's
and Justice Souter s dissent down play the role that
the economic nature of the regulated activity plays in
our commerce clause analysis. But a fair reading of
Lopez shows that the non-economic, criminal nature
of the conduct at issue was central to our decision in
that case. Morrison at 610 quoting Lopez at 551.
Lopez and Morrison have made clear that conduct
in question must be economic or commercial to be in or
affecting commerce; and this Court has reaffirmed this
point in Morrison.

Since Lopez most recently canvassed
and clarified our case law.. • it provides the
. proper
framework for conducting the required analysis ..."
; Morrison at 610. If Lopez provides the proper framework
for conducting the analysis, then the Court would have
had to find that the conduct in question was economic
or commercial. There is no case law supporting or opining
18

that mere gun possession is in or affecting commerce,
or that it is economic or commercial in some way. As
such, it is for this Court to clarify this point. Mere
gun possession is nothing more than a non-economic,
non-commercial act, that when possessed in violation
of the law, is a purely local crime. If this Court in
Lopez found that the possession of a gun in local school
zone is in no sense an economic activity, Id. at 610,
then how does possession of a gun on a public street
become an economic activity. "Unlike the earlier cases
to come before the Court here, neither the actors,
nor their conduct has a commercial character..." Lopez
at 559-560. "...Thus far in our nations history our cases
have upheld Commerce Clause regulation of interstate
activity' only where that activity is economic in nature."
Id. collecting cases.
If the history of commerce cases are only upheld
when the activity is economic, then clearly the mere
possession of a firearm cannot be upheld as being in
or affecting commerce, and should be held so by this
Court. Lopez and Morrison clearly support that § 922(g)
ris unconstitutional as applied to petitioner's conduct
since the conduct in question was neither economic nor
commer.c.ial •

19

IV.

PETITIONER'S PENALTY RANGE WAS INCREASED IN
VIOLATION OF PETITIONER'S FIFTH AND SIXTH AMENDMENT
RIGHTS.
The Constitution guarantees criminal defendant's
the right to to due process, and trial by an imparttial jury. The fifth amendment requires that the
defendant he informed by indictment of the cause and
charges against him inorder for him to present a
defense, and so that he is aware of the punishment to
be inflicted. The sixth amendment guarantees the right
to have any fact that is essential to the penalty to
inflicted lie submitted to a jury to be found beyond a
reasonable doubt. This court has held on more than one
occasion that facts that increase the prescribed pena­
lty ranges are elements of the crime and therefore
must be alleged in the indictment and proven to a
jury beyond a reasonable doubt, see Sessions v Dimaya
138 S ct^ 1204, 1253 (2018), Rangel-Reyes v U.S. 547
US 1200 (2006 ), Alleyne at 101, and Apprendi in
general, see also U.S. v. Haymond 139 S. ct. 2369,
2376-77.
Petitioner had his penalty range for the crime
increased from 27-33 months to 77-96 months, based on
tv/o enhancements outlined in the federal sentencing
provisions (USSG Manual). The enhancements come from
section 2K2.1 of the manual. The first enhancement
was based on the application of 2K2.1(b) (6) (B) which
states: if- the defendant- used or possessed any
firearm or ammunition in connection with another felony
offense, (increase the punishment level by 4 levels).
The second enhancement was based on 2K2.1(a)(4)(B)
which states: if- the offense involved a (I) semii

t

automatic firearm capable of accepting a large capacity
20

f

magazine; (increase punishment to level 20)«, emphasis
*
*
on original. The prescribed penalty for a violation
of 922(g), i.e. being a person prohibited from
j

possessing a firearm, is a level 14. see 2K2.1(a)(6).
Petititioner made and continues to make several
arguments as to why the application of the enhancements
violated his fifth and sixth amendments rights.
First, these enhancements were not alleged in the
indictment, which denied the petitioner the fifth
amendment right "to have the indictment contain an
allegation of every fact which is legally essential
to the punishment to be inflicted", see .lleyne at 111
and Apprendi at 468. citing U.S. v. Reese 92 US 214,
s'

232-33 (1876). Petitioner's indictment only alleged
that petititioner: knowingly possessed a firearm and
ammunition in arid affecting interstate and foreign
commerce, having previously been convicted of a crime
punishable by imprisonment for a term exceeding one
year, and knowing that he had been convicted of such
crime, pet. app. pg.___ . The government neither
alleged nor submitted to the grand jury the facts
that were used to increase petitioner's penalty range,
to wit, that he possessed the firearm in connection
with another felony offense, and that the firearm was
a semi-automatic capable of accepting a large capacity
magazine.
These same facts were also not put before the
trial jury to be proved beyond a reasonable doubt. "
the sixth amendment provides that those accused of
a crime have the right to a trial by impartial jury.
This right in conjunction with the Due Process Clause
requires that each element of the crime be proved to
the jury beyond a reasonable doubt". Alleyne at.104
'

t

citing U.S. v. Gaudin 515 US 506, 510 (1995). More
importantly, the Apprendi holding, section (d),
21

specifically held that: "that the State placed the
enhancer within the criminal codes sentencing prpvions does not mean that it is not an essential element
of the offense", id at472 . This leads to petitioner's
incorporated question of whether this particular
premise applies to those enhancers within the federal
criminal sentencing provisions. To he clear, petitioner
does not and is not asserting that either Apprendi or
Alleyne govern this argument; but rather that the
premise outlined in both cases give credence to pet­
itioner's argument. If this court's Apprendi holding,
that the placement of a penalty enhancer in a state
snetencing provision does not stop it from being an
element, then it is only logical that a penalty enhancer
placed in the federal sentencing provisions must be
held to the same standards. As for the judicial finding
principle reiterated in Alleyne, it can not be argued
that this is such a case.
Firs't, the USSG Manual directs that these enhan­
cements be used. Secondly, the PSI, which guided the
District court's considerations, is also guided 'by the
USSG Manual. Finally, the District court itself,
adopted the PSI findings which clearly shows that not
only were the enhancers not independently found judicial
facts, but that neither would have been part of the
judges consideration in sentencing had their use not
been dictated by the USSG Manual, and the PSI. The law
is clear. It is firmly established in 5th and 6th
amendment jurisprudence that "any fact" other than a
prior conviction is an element of the offense that
must be alleged in the indictment and proven beyond
a reasonable doubt. Accordingly this court should find
that the use of these enhancers not only violated
petitioner's 5th and 6th amendment rights, but also
the premise held in Apprendi.
22

firearm possession was in or affecting
commerce. United
States v Bass gave examples of how the
government could
prove a violation of 'possesing in
or affecting commerce,
for example,:a.person possess... in commerce or affecting
commerce, if at the time of the possession

the gun

was moving interstate or on an interstate facility,
or affects commerce. " Id. at 350.
In Lopez, this
Court narrowed the commerce application to activity
that was economic or commercial.
"Both petitioner's
and Justice Souter s dissent down play the role that
the economic nature of the regulated activity plays in
our commerce clause analysis. But a fair reading of
Lopez shows that the non-economic

criminal nature

of the conduct at issue was central to our decision in
that case. Morrison at 610 quoting Lopez at 551.
Lopez and Morrison have made clear that conduct
in question must be economic or commercial to be in or
affecting commerce; and this Court has reaffirmed this
point in Morrison,

Since Lopez most recently canvassed

and clarified our case law.. • it provides the
-proper
framework for conducting the required analysis..."
; Morrison at 610. If Lopez provides the proper framework
for conducting the analysis, then the Court would have
had to -find, that the conduct in question was economic
or commercial. There is no case law supporting or opining
23

that mere gun possession i‘s in or- affecting commerce,
or that it is economic or commercial in some way. As
such,.it is for this Court to clarify this point. Mere
gun possession is nothing more than a non-economic,
non-commercial act, that when possessed in violation
of the law, is a purely local crime. If this Court in
Lopez found that the possession of a gun in local school
zone is in no sense an economic activity, Id. at 610,
then how does possession of a gun on a public street
become an economic activity. "Unlike the earlier cases
to come before the Court here, neither the actors,
nor their conduct has. a commercial character..." Lopez
• at 559-560. "...Thus far in our nations history our cases
have upheld Commerce Clause regulation of interstate
activity only where that activity is economic in nature.
Id. collecting cases.
If the history of commerce cases are only upheld
when the activity is economic, then clearly the mere
possession of a firearm cannot be upheld as being in
or affecting commerce, and should be held so by this
Court. Lopez and Morrison clearly support that § 922(g)
ris unconstitutional as applied to petitioner's conduct
since the conduct in question was neither economic nor
commercial.

24

CONCLUSION

The Court should reverse and vacate the judgements
below from the 4th Circuit Court of Appeals, for the
reasons argued herein by petitioner, and remand with
instructions consistent with it's holdings; specifically
holding that Scarborough is hereby overruled as incon­
sistent with Lopez; that Congress lacks the power to
regulate and punish mere firearm possession; and that
922(g) does not reach the petitioner's conduct.

3

DATED ■■-AjjagJdfZQZL

Burudi . Faison
FCI Ha^elton
P.0. BOX 5000
Bruceton Mills W.V.
26525
Inmate#35075-037

25

